                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250


DATE:          02/02/2010

REPLY TO
ATTN OF:       27703-1-HQ
TO:            Julie Paradis
               Administrator
               Food and Nutrition Service
ATTN:          Lael Lubing
               Director
               Grants Management Division
FROM:          Rod DeSmet /s/
               Acting Assistant Inspector
                General for Audit
SUBJECT:       American Recovery and Reinvestment Act of 2009 Equipment Assistance Grants


Public Law 111-5, the American Recovery and Reinvestment Act of 2009 (ARRA) was signed
into law by President Obama on February 17, 2009. The U.S. Department of Agriculture
(USDA) received $28 billion in funding under the American Recovery and Reinvestment Act of
2009 (ARRA) in a number of program areas, including a one-time appropriation of $100 million
for equipment assistance to school food authorities (SFAs) participating in the Food and
Nutrition Service (FNS) National School Lunch Program (NSLP). The funds will be used to
purchase, renovate, or replace food service equipment and will be awarded through a competitive
grant application process. As stipulated in the ARRA, the States shall provide competitive grants
to SFAs based upon the need for equipment assistance in participating schools, with priority
given to schools where over 50 percent of the students are eligible for free or reduced price
meals under the National School Lunch Act.

NSLP is a federally assisted meal program involving over 101,000 public and non profit private
schools and residential child care institutions. The FNS national office provides policy direction
to its seven regional offices. The regional offices communicate national office policies to State
Agencies and ensure that the State Agencies operate the program in accordance with the ARRA
and Office of Management and Budget (OMB) guidance. State Agencies (SA) are generally
state-level education or health agencies. The SA works with school food authorities who are
responsible for the day to day operations of the NSLP.
Julie Paradis                                                                               2

OIG’s objectives are to evaluate FNS’ oversight of NSLP equipment assistance grant funds.
This memorandum documents the results of our work through January 2010. Additional
memoranda may follow if other issues are identified during the course of our audit. Issues
identified in these memoranda will be compiled into a formal report. To accomplish our
objectives, we will continue to assess the program’s policies and procedures, as well as its
internal controls. We will also continue to perform site visits at selected SFAs and schools.
Issues addressed in this report resulted from reviews, interviews, and site visits at FNS’ National
Office, Southeast and Southwest Regional Offices, and five SA offices.1

We reviewed the grant application processes used by SFAs and learned that the SAs assigned a
score to each application based on criteria established by the SA. Each state we reviewed used a
different set of criteria. We discussed FNS regional office oversight processes with FNS regional
office personnel and found that they did not review or obtain an understanding of the competitive
grant application process for their respective states. We also found that the FNS National Office
did not issue guidance requiring the regional offices to conduct a review or obtain an
understanding of their respective SAs’ competitive grant application processes. As a result, FNS
cannot ensure that NSLP equipment assistance grants are competitively awarded based upon the
need for equipment assistance, with priority given to schools in which not less than 50 percent of
the students are eligible for free or reduced price meals. To verify this, we reviewed the grant
application evaluation process for five states. During this review, we noted that SAs had
implemented questionable grant application evaluation processes. Specifically, we noted that
New Mexico awarded grants based on the number of students participating in the program, rather
than the number of students eligible for free or reduced price meals; South Carolina did not
include need as a criteria in their grant evaluation process; and Tennessee awarded grants to
schools with lower scores on their application over schools that had higher scores.

ARRA requires that States shall provide competitive grants to SFAs based upon the need for
equipment assistance in participating schools, with priority given to schools in which not less
than 50 percent of the students are eligible for free or reduced price meals under the NSLA. On
April 3, 2009, OMB issued M-09-15, Updated Implementing Guidance for ARRA of 2009. OMB
M-09-15 Section 5 provides guidance on how agencies are to plan, implement, oversee, and
report grants and cooperative agreements. Subsection 4 of Section 5 – Grants and Cooperative
Agreements requires agencies receiving ARRA funds to take steps, beyond standard practice, to
initiate additional oversight mechanisms in order to mitigate the unique implementation risks of
the ARRA.

As a result of OIG discussions with FNS, Memorandum SP-12-2010 was issued on January 8,
2010, to regional and state directors responsible for NSLP. SP-12-2010 instructed SAs to
reallocate all unspent NSLP equipment assistance grant funds to the next applicant approved
through the initial competitive grant application process. As of December 31, 2009, the five
states we reviewed were going to reallocate a total of $376,092 in unspent ARRA funds.

When we discussed our finding with FNS National Office officials, they noted that the grants
were part of an overall effort to stimulate the economy. USDA departmental officials encouraged
all agencies to spend the ARRA funds quickly, thus the timeframes for ARRA implementation
were much tighter than normal. As a result, FNS officials did not perform a pre-award
1
    We visited South Carolina, Tennessee, Texas, Oklahoma, and New Mexico.
Julie Paradis                                                                               3

examination of the state competitive process because they believed it would delay spending. We
recognize that reviewing each SA grant application evaluation process may be resource
intensive, and suggested that FNS regional offices could consider a risk based approach in
determining which SAs should be reviewed.

We discussed this issue with FNS NSLP program and financial management officials in
December. They generally agreed with our finding. In light of unliquidated funds being made
available for SA reallocation, we recommend that:

       FNS should provide the necessary oversight to ensure that the remaining funds to be
       awarded are based upon the need for equipment assistance in participating schools, with
       priority given to schools in which not less than 50 percent of the students are eligible for
       free or reduced price meals under the National School Lunch Act.

Please provide a written response within 5 days that outlines your corrective action on this
matter. If you have any questions, please contact me at (202) 720-6945, or have a member of
your staff contact Jane Bannon, Division Director, IT Audit Operations and Departmental
Administration, at (202) 720-7845.
Julie Paradis                                 4

                          USDA’S




                 Food and Nutrition Service




                RESPONSE TO AUDIT REPORT
United States
Department of
Agriculture
                 DATE:        February 23, 2010

Food and         SUBJECT: Food and Nutrition Service (FNS) Response to the Office of Inspector
Nutrition                 General (OIG) American Recovery and Reinvestment Act of 2009 (ARRA)
Service
                          Fast Report
3101 Park
Center Drive
                 TO:         Ron DeSmet
Alexandria, VA               Acting Assistant Inspector
22302-1500
                             General for Audit

                 ATTN:       Jane Bannon
                             Director
                             IT Audit Operations and Departmental Administration


                 The purpose of this memorandum is to respond to the Office of Inspector General’s
                 (OIG) Fast Report regarding ARRA National School Lunch Program (NSLP) Equipment
                 Assistance Grants, dated February 2, 2010. FNS supports OIG’s objectives to ensure
                 State agencies (SA), school food authorities (SFA), and schools are acting responsibly
                 and within the parameters of ARRA. However, FNS strongly disagrees with OIG’s two
                 fundamental contentions – that FNS did not conduct adequate oversight of the grant
                 award process and that States’ grant processes did not ensure that grants were
                 competitively awarded based upon need for equipment assistance, with priority given to
                 schools with fifty percent or more students eligible for free or reduced price meals.

                 First, OIG asserts that FNS did not review or obtain an understanding of the States’
                 competitive grant application process. During the States’ competitive grants process for
                 ARRA funding, FNS provided on-going support and guidance to SAs through multiple
                 policy memos, Frequently Asked Questions (FAQs), and technical assistance phone calls,
                 to ensure each State and FNS had a clear understanding of the ARRA competitive grant
                 award process. Given that ARRA did not prescribe a specific competitive grant process,
                 States were instructed to follow the same laws, regulations, principles, procedures, and
                 practices in awarding these grants with the ARRA funds as they were required to follow
                 in awarding other grants within their State. Individual State laws and regulations are
                 specifically designed to ensure fair and open competition exists within the awarding
                 process. In addition to this expectation, FNS provided further guidance to SAs outlining
                 the mandated criteria imposed by ARRA (i.e., equipment need and the 50 percent or more
                 free and reduced-price eligibility) which States were required to integrate in the
                 competitive grants process.

                 OMB guidance M-09-15, dated April 3, 2009, Subsection 4 of Section 5 requires
                 agencies receiving ARRA funds to take steps, beyond standard practice, to initiate
                 additional oversight mechanisms in order to mitigate the unique implementation risks of
                 ARRA. As mentioned in the previous paragraph, the technical assistance and guidance



                                       AN EQUAL OPPORTUNITY EMPLOYER
FNS provided to SAs over the course of the ARRA process more than satisfied this
requirement. Therefore, FNS disagrees with the Fast Report assertion that it did not
undertake additional oversight measures beyond the normal grant processes to ensure
accountability and program integrity. The report states that FNS should have performed a
“pre-award examination” of the States’ competitive grants process prior to implementation.
We believe the oversight implemented by FNS should not be minimized, and ensured the
goal of stimulating the American economy by swiftly awarding these funds, as mandated by
the ARRA.

Second, OIG’s Fast Report asserts that SAs employed questionable competitive processes for
awarding equipment grants. The ARRA required States to award these equipment funds on a
competitive basis based on need for equipment assistance; and to give priority to schools
with at least 50 percent of students eligible for free or reduced-price meals. FNS does not
believe that the awards process in any of the three States reviewed was inconsistent with
these statutory requirements. Specifically:

South Carolina (SC)
It was reported that SC did not include ‘need’ as a criterion in the grant evaluation process.
SC’s application process requires applicants to indicate which of the four (4) focus areas will
be addressed with the purchase and installation of the specified equipment. If the narrative
statement includes at least one of the four focus areas, then the need is validated and the
applicant receives an additional five (5) points in the selection process. The application also
requests applicants to indicate the age of the existing equipment, which additionally
demonstrates that the ‘need’ criterion was addressed in the grant award process.

Tennessee (TN)
OIG suggests that TN did not follow ARRA guidelines by awarding grants to schools with
lower scores on their application over schools that had higher scores. TN chose to prioritize
eligible schools’ within each SFA, then funded their neediest schools. Thus while the States
RFA was structured to afford each SFA within the State the opportunity to receive some
level of ARRA funding, TN process did give priority to low income schools. The ARRA did
not require that only the lowest-income schools in the State receive funds. Rather, it requires
that States give priority to schools meeting the 50 percent free or reduced price threshold,
which TN did. Therefore, contrary to OIG’s assertion of the state’s questionable use of a
competitive grants process, FNS believes the statutory requirements of the ARRA were met
by TN and not violated, as OIG asserts. We note all but one of the schools receiving
equipment grants had 50% or more of students at free or reduced price.

New Mexico (NM)
NM awarded grants based on the number of students participating in the program rather than
the number of students eligible for free or reduced-price meals. After further investigation of
the NM process by FNS, it was determined that this issue arose during the execution of the
grants, rather than reflecting a flaw in the established competitive process, which OIG
affirmed was structured properly. FNS is working closely with NM management staff to
correct the problem in executing the process.




                          AN EQUAL OPPORTUNITY EMPLOYER
For the reasons noted above, FNS believes OIG’s recommendation that FNS provide
additional oversight in the award of the remaining funds in FY 2010 unwarranted and not
supported by the findings presented in the report. It is also worth noting it is not a timely
recommendation, as the process in FY 2010 is underway nor a prudent use of limited
administrative resources.

If you would like to further discuss our position regarding your Fast Report, please contact
the Child Nutrition Division office at 703-305-2590.


/s/

Julia Paradis
Administrator

cc: Ron Vogel, SNP
    Cindy Long, CND
    Lynn Rodgers, CND
    Lael Lubing, GFPD
    Mark Porter, GFPD
    Mel Pickrell, SWRO
    Sara Harding, SERO




                          AN EQUAL OPPORTUNITY EMPLOYER
